Docket No. 20-___

In the
Supreme Court of the United States

 

Artem M. Joukov,
Petitioner,
v.
Office of State Attorney Second Judicial Circuit of Florida,

Respondent.

 

CERTIFICATE OF WORD COUNT

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying brief, which was prepared using Century Schoolbook 12-point
typeface, contains 8,841 words, excluding the parts of the document exempted by Rule
33.1(d). Pursuant to Rule 33.2(b), the document is 34 pages, excluding the parts of
the document exempted by Rule 33.1(d). This certificate was prepared in reliance on
the word-count function of the word processing system (Microsoft Word) used to
prepare the document.

Artem M. Joukov

Pro se Petitioner and Counsel of Record
1431 West 37th Street, Unit 2A

Los Angeles, California 90018
Telephone: 251-223-2702

Email: amjoukov@ua.edu
